                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13050067                                                                    Page 1 of 1



                 We assessed an allegation1 that an NSF Program Officer2 was acting inappropriately as
         regards a conflict of interests. We uncovered no evidence that reviews of proposals submitted to
         NSF have been compromised, or that funding decisions have been affected, that confidential NSF
         information was compromised, or that the program officer had any actual or perceived conflict of
         interests. There is no apparent violation of a specific NSF rule or regulation.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
